FR833282333 BARGAIN OUTLET B2B DC TC 184-286-00 CREDIT CARD
DC TC 184-286-00 38303L
6/19

SYNCHRONY BANK
SECTION I: RATES AND FEES TABLE
BUSINESS REVOLVING CREDIT CARD ACCOUNT AGREEMENT
PRICING INFORMATION
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

29.99%

Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge
you any interest on non-promotional purchases if you pay your entire balance by the
due date each month. We will begin charging interest on promotional purchases on the
purchase date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.

Fees
Penalty Fees
• Late Payment
• Returned Payment

Up to $39.
$28

How We Will Calculate Your Balance: We use a method called “daily balance.” See your credit card account agreement that
follows for more details.

1

SECTION II: RATES, FEES AND PAYMENT INFORMATION OF THE
BUSINESS REVOLVING CREDIT CARD ACCOUNT AGREEMENT
How Interest Is Calculated
Your Interest Rate

We use a daily rate to calculate the interest on the balance on your account each day. The daily rate for
purchases is the APR times 1/365. The daily rate for purchases is .08217% (APR 29.99%). Interest will be
imposed in amounts or at rates not in excess of those permitted by applicable law.

When We Charge Interest

We charge interest on your purchases from the date you make the purchase until you pay the purchase in full.
See exceptions below.
• We will not charge you interest during a billing cycle on any non-promotional purchases if:
1. You had no balance at the start of the billing cycle; OR
2.	You had a balance at the start of the billing cycle and you paid that balance in full by the due date in that
billing cycle.
We always charge interest on promotional purchases and their related fees from the date you make the purchase.
• We will credit, as of the start of the billing cycle, any payment you make by the due date that we allocate to
non-promotional purchases if:
1. You had no balance at the start of the previous billing cycle; OR
2.	You had a balance at the start of the previous billing cycle and you paid that balance in full by the due
date in the previous billing cycle.

How We Calculate Interest

We figure the interest charge on your account separately for each balance type. We do this by applying the
daily rate to the daily balance for each day in the billing cycle. A separate daily balance is calculated for the
following balance types, as applicable: purchases and balances subject to different interest rates, plans or
special promotions. See below for more details on how this works.
1. How to get the daily balance: We take the starting balance each day, add any new charges and fees, and
subtract any payments or credits. This gives us the daily balance. Debt cancellation fees, if any, and late
payment or returned payment fees are treated as new purchases.
2. How to get the daily interest amount: We multiply each daily balance by the daily rate that applies.
3. How to get the starting balance for the next day: We add the daily interest amount in step 2 to the daily
balance from step 1.
4. How to get the interest charge for the billing cycle: We add all the daily interest amounts that were
charged during the billing cycle.
We charge a minimum of $2.00 of interest in any billing cycle in which you owe interest. Interest, as calculated
above, is added as applicable to each balance type. Minimum interest charges in excess of the calculated
interest are treated as new purchases.

How Fees Work
Late Payment Fee

We will charge this fee if we do not receive the total minimum payment due on your account by
5 p.m. (ET) on the due date. This fee is equal to:
1. $28, if you have paid your total minimum payment due by the due date in each of the prior six billing
cycles.
OR
2. $39, if you have failed to pay your total minimum payment due by the due date in any one or more of the
prior six billing cycles.
The late payment fee will not be more than the total minimum payment that was due.

Returned Payment Fee

We will charge this fee if any check, other instrument, or electronic payment authorization you provide us in
payment on your account, is not honored, returned unpaid or cannot be processed for any reason. This fee is
equal to $28. The returned payment fee will not be more than the amount permitted by applicable law.

Minimum Payment Calculation
Your total minimum payment is calculated as follows.
The sum of:
a. F
 or the new balance shown on your billing statement (excluding any balance attributable to a special promotional purchase with a unique payment
calculation), the greater of:
		
(i)	$50; or
		
(ii)	1/12th of the new balance shown on your billing statement; or
		
(iii)	The sum of 1% of your new balance shown on your billing statement plus interest and late payment fees charged in the current billing cycle;
PLUS
b. Any past due amounts; PLUS
c. Any payment due in connection with a special promotional purchase with a unique payment calculation.
We round up to the next highest whole dollar in figuring your total minimum payment. Your total minimum payment will never be more than your new balance.

SECTION III: STANDARD PROVISIONS
BUSINESS REVOLVING CREDIT CARD ACCOUNT AGREEMENT
ABOUT THE CREDIT CARD ACCOUNT AGREEMENT
This Agreement. This is an Agreement between you and Synchrony Bank, 170 Election Road, Suite 125, Draper, UT 84020, for your credit card account
shown above. By opening or using your account, you agree to the terms of the entire Agreement. The entire Agreement includes the four sections of this
document and the application you submitted to us in connection with the account. These documents replace any other agreement relating to your account that
you or we made earlier or at the same time.
2

Parties To This Agreement. This Agreement applies to each accountholder approved on the account and each of you is responsible for paying the full amount
due, no matter which one uses the account. We may treat each of you as one accountholder and may refer to each of you as “you” or “your.” “You” and “your”
means the person or entity that signs the application or on whose behalf the application is signed. Synchrony Bank may be referred to as “we,” “us” or “our.”
Changes To This Agreement. We may change, add or delete terms of this Agreement, including interest rates, fees and charges. No change to any term of
this Agreement will affect your obligation or the obligation of any personal guarantor of this Agreement to pay, in full, all amounts owing under this Agreement
or otherwise perform the terms and conditions of this Agreement or any related guaranty.
Special Promotions. The terms of this Agreement apply to any special promotion. However, any special promotional terms that are different than the terms
in this Agreement will be explained on promotional advertising or other disclosures provided to you.
HOW TO USE YOUR ACCOUNT/CARD
Use Of Your Account. You may use your account only for lawful purposes and as stated in this Agreement. You may use your account for purchases from
dealers/merchants/retailers that accept the card. You agree that you may use your account only for purchases for commercial or business purposes, and not
for personal, family or household purposes. You understand that important duties imposed upon us, and important rights conferred upon a consumer, pursuant
to certain federal or state laws, will not apply to this account. You also understand that we will be unable to determine whether any given purchase conforms
to this section of this Agreement. You agree that a breach by you of this section of this Agreement will not affect our right to enforce your promise to pay for
the credit extended to you, including related charges, or to use any remedy legally available to us even if that remedy would not have been available had the
account been established as a consumer credit account. You may not use your account to pay amounts you owe us on this account or on other accounts you
have with us. These restrictions are for our benefit, and we are not responsible to you for enforcing them.
You Promise To Pay. You promise to pay us for all amounts owed to us under this Agreement. You may buy from dealer/merchant/retailer the merchandise
(including any related services) described in the sales invoice(s) for the cash price(s) shown on such invoices. By signing the application, you have requested
that we establish this business revolving credit card account for your business use and that we permit you to finance your purchase from the seller on credit
under the terms of this Agreement. Any other terms set out in your purchase order or in any other or different form will not apply, even though such purchase
order or other or different form may be submitted to or accepted by us in connection with a purchase. You understand that we will be unable to determine
whether any given purchase charged on your account was in fact authorized by and for the benefit of the business in whose name the account is established.
You agree that your promise to pay, as contained in this section of this Agreement, will apply to all purchases made by any of you whether or not the purchase
was in fact authorized by and for the benefit of that business. Any person signing the application on behalf of a business attests that the business is a valid
business entity or a qualified religious, educational, or other non-profit entity, or a governmental agency or instrumentality; and that the business has authorized
(a) the execution of the application, and (b) the person signing the application to execute the application on its behalf.
Your Responsibility. Each accountholder will receive a card. You may not allow anyone else to use your account. If you do, or if you ask us to send a card to
someone else, you will be responsible for paying for all charges resulting from their transactions.
Purchase Limits. To prevent fraud, we may limit the number or dollar amount of purchases you can make in any particular amount of time. We also may
decline any particular charge on your account for any reason.
Credit Limit. You will be assigned a credit limit that we may increase or decrease from time to time. If we approve a purchase that makes you go over your
credit limit, we do not give up any rights under this Agreement and we do not treat it as an increase in your credit limit.
HOW AND WHEN TO MAKE PAYMENTS
When Payments Are Due. You must pay at least the total minimum payment due on your account by 5 p.m. (ET) on the due date of each billing cycle.
Payments received after 5 p.m. (ET) will be credited as of the next day. You may at any time pay, in whole or in part, the total unpaid balance without any
additional charge for prepayment. If you have a balance subject to interest, earlier payment may reduce the amount of interest you will pay. We may delay
making credit available on your account in the amount of your payment even though we will credit your payment when we receive it.
Payment Options. You can pay by mail, online or at certain dealers/merchants/retailers that accept the card and payments. We may allow you to make
payments over the phone but we will charge you a fee to make expedited phone payments. Your payment must be made in U.S. dollars by physical or
electronic check, money order or a similar instrument from a bank located in the United States.
How To Make A Payment. You must follow the instructions for making payments provided on your billing statement. If you do not, credit of your payment
may be delayed up to five days. Your billing statement also explains how information on your check is used.
Payment Allocation. We will apply the required total minimum payment to balances on your account using any method we choose. Any payment you make
in excess of the required total minimum payment will be applied to higher APR balances before lower APR balances. Applicable law may require or permit us
to apply excess payments in a different manner in certain situations, such as when your account has a certain type of special promotion.
INFORMATION ABOUT YOU
Your Credit Reports And Account Information. The credit of your business and the personal credit of any individual signing the application, including any
personal guarantor, may be used in making credit decisions. You, and any personal guarantor, authorize us to investigate your creditworthiness by requesting
information and making whatever inquiries we consider necessary and appropriate (including obtaining information from third parties and requesting consumer
reports from consumer reporting agencies) for the purpose of considering your application for this account and subsequently, in connection with any updates,
renewals or extensions of credit or reviewing or collecting your account. You also authorize us to report information concerning you or your account, and any
personal guarantor, including information about your, and any personal guarantor’s, performance under this Agreement, to consumer reporting agencies and
others who may properly receive such information.
Address/Phone Change. You represent that any phone number that you provide to us belongs to you and/or that you are authorized to provide that number.
You also agree to tell us right away if you change your address or any phone number.
3

Consent To Communications. You consent to us, as well as any other owner or servicer of your account, contacting you through any channel of communication
and for any purpose, as permitted by applicable law. For informational, servicing, fraud, or collection related communications, you agree that we may use the
phone numbers that you provide to us to contact your cellular phone or wireless device with text messages, artificial or prerecorded voice calls, and calls made
by an automatic telephone dialing system. Text frequency may vary and may be recurring. This consent applies even if you are charged for the call under your
plan. You are responsible for any charges that may be billed to you by your communications carrier when we contact you. Message and data rates may vary.
We and any carrier are not liable for delayed or undelivered messages. If you have questions, please call the number on the back of your card.
Telephone Monitoring. For quality control, you allow us to listen to and/or record telephone calls between you and us.
IMPORTANT INFORMATION ABOUT YOUR ACCOUNT
Closing Your Account. You may close your account at any time by sending a letter to the address shown on your billing statement or calling customer service.
We may close your account at any time, for any reason. If your account is closed, you must stop using it. You must still pay the full amount you owe and this
Agreement will remain in effect until you do.
Collection Costs. If we ask an attorney who is not our salaried employee to collect your account, we may charge you our collection costs. These include
court costs and reasonable attorneys’ fees.
Credit Bureau Reporting. We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on
your account may be shown in your credit report. Tell us if you think we reported wrong information about you to a credit bureau. Write to us at
Synchrony Bank, P.O. Box 965036, Orlando, FL 32896-5036. Tell us what information is wrong and why you think it is wrong. If you have a copy of the credit
report that includes the wrong information, send us a copy.
Default. You are in default if you make a late payment, do not follow any other term of this Agreement or become bankrupt or insolvent. If you default or upon your
death, we may (a) request payment of the full amount due right away, (b) take legal action to collect the amounts owed, and/or (c) take any other action allowed.
Disputed Amounts. If you send us correspondence about a disputed amount or payment, you must send it to the address for billing inquiries.
We do not give up any rights under this Agreement if we accept a payment marked “payment in full” or given with any other conditions or
limitations.
Unauthorized Use. If your card is lost, stolen or used without your consent, call us immediately at 1-866-396-8254. You will not be liable for unauthorized use
on your account, but you will be responsible for all use by anyone you give your card to or allow to use your account.
IMPORTANT INFORMATION ABOUT THIS AGREEMENT
Assignment. We may sell, assign or transfer any or all of our rights or duties under this Agreement or your account, including our rights to payments. We do
not have to give you prior notice of such action. You may not sell, assign or transfer any of your rights or duties under this Agreement or your account.
Enforceability. If any part of this Agreement is found to be void or unenforceable, all other parts of this Agreement will still apply.
Governing Law. Except as provided in the Resolving a Dispute with Arbitration section, this Agreement and your account are governed by federal law and, to
the extent state law applies, the laws of Utah without regard to its conflicts of law principles. This Agreement has been accepted by us in Utah.
Waiver. We may give up some of our rights under this Agreement. If we give up any of our rights in one situation, we do not give up the same right in another
situation. Except as we may agree in a signed writing, we do not give up any rights if, among other things, we release any personal guarantor responsible for
your obligations under this Agreement without notifying you or any personal guarantor and without releasing you or any personal guarantor from your obligation
to pay all amounts owing under this Agreement in full, or to otherwise perform the terms and conditions of this Agreement. You and any personal guarantor
understand and agree that your obligation and the obligation of any personal guarantor to pay all amounts owing under this Agreement and otherwise to
perform the terms and conditions of this Agreement and any related guaranty are absolute and unconditional.
RESOLVING A DISPUTE WITH ARBITRATION
PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL APPLY TO YOUR ACCOUNT, AND MOST DISPUTES
BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A JURY WILL
RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS
INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
1. CLAIMS AND PARTIES. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you (including
any other user of your account), and us (including our parents, affiliates, agents, employees, officers, and assignees) that directly or indirectly arises
from or relates to your account, your account Agreement or our relationship, except as noted below. In addition, dealers/merchants/retailers and/or any
assignee, agent, or service provider of ours that collects amounts due on your account are intended beneficiaries of this Arbitration section and may
enforce it in full (notwithstanding any state law to the contrary).
2. This Arbitration section broadly covers claims based upon contract, tort, consumer rights, fraud and other intentional torts, negligence, constitution,
statute, regulation, ordinance, common law and equity and claims for money damages and injunctive or declaratory relief, even if they arose before this
section took effect. You may not sell, assign or transfer a claim.
3. Examples of claims subject to arbitration are disputes about an account transaction, fees, charges or interest, the events leading up to the Agreement
(such as any disclosures, advertisements, promotions or oral or written statements, warranties or representations made by us), an application for or
denial of credit, any product or service provided by us or third parties in connection with the Agreement, credit reporting, benefit programs related to your
account including any reward program, the collection of amounts due by our assignees, service providers, or agents and the manner of collection.

4

4. However, we will not require you to arbitrate any individual case in small claims court or your state’s equivalent court, so long as it remains an individual
case in that court. Also, even if all parties have opted to litigate a claim in court, you or we may elect arbitration with respect to any claim made by a new
party or any claim later asserted by a party in any related or unrelated lawsuit, including modifying an individual claim to assert a class, representative or
multi-party claim. Arbitration may be requested at any time, even where there is a pending lawsuit, unless a trial has begun, or a final judgment entered.
5. Only a court will decide disputes about the validity, enforceability, coverage or scope of this Arbitration section or any part thereof. However, any dispute
that concerns the validity or enforceability of the Agreement as a whole is for the arbitrator to decide.
6. NO CLASS ACTIONS. IF EITHER YOU OR WE ELECT TO ARBITRATE A CLAIM, NEITHER YOU NOR WE WILL HAVE THE RIGHT (A) TO PARTICIPATE
IN A CLASS ACTION, PRIVATE ATTORNEY GENERAL ACTION OR OTHER REPRESENTATIVE ACTION IN COURT OR IN ARBITRATION, EITHER AS
A CLASS REPRESENTATIVE OR CLASS MEMBER, OR (B) TO JOIN OR CONSOLIDATE CLAIMS WITH CLAIMS OF ANY OTHER PERSONS EXCEPT
ACCOUNTHOLDERS ON YOUR ACCOUNT. THUS, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER WHO IS
NOT AN ACCOUNTHOLDER ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS ON YOUR ACCOUNT MAY BE JOINED IN A
SINGLE ARBITRATION WITH ANY CLAIM YOU HAVE.
7. PROCEDURES. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of
a lawsuit or in papers filed in the lawsuit. Otherwise, your notice must be sent to Synchrony Bank, Legal Operation, P.O. Box 29110,
Shawnee Mission, KS 66201-5320, ATTN: ARBITRATION DEMAND. The party seeking arbitration must select either the American Arbitration Association
(AAA), 120 Broadway, Floor 21, New York, NY 10271, www.adr.org, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com,
to administer the arbitration. If neither administrator can handle the dispute, a court with jurisdiction will appoint an arbitrator.
8. The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least ten years of
legal experience. The arbitrator must apply the same law, consistent with the Federal Arbitration Act (FAA), that would apply to an individual action in
court, but may use different procedural rules. The arbitrator will apply the same statutes of limitation and privileges that a court would apply if the matter
were pending in court.
9. The arbitrator may award any damages or other relief or remedies that would apply under applicable law to an individual action brought in court, including,
without limitation, punitive damages (governed by the Constitutional standards employed by the courts) and injunctive, equitable and declaratory relief
(but only in favor of the individual party seeking relief and only to the extent necessary to provide relief warranted by that party’s individual claim). The
parties will bear the fees and costs of their attorneys, witnesses and experts. However, the arbitrator will have the authority to award fees and costs of
attorneys, witnesses and experts to the extent permitted by the Agreement, the administrator’s rules or applicable law.
10. The arbitration will take place by phone or at a location reasonably convenient to you. If you ask, we will pay all the fees the administrator or arbitrator
charges if you cannot obtain a waiver of fees from the administrator and are acting in good faith. We will always pay arbitration costs required by the
administrator’s rules or that are necessary for this Arbitration section to be enforced.
11. GOVERNING LAW. This Arbitration section is governed by the FAA. Utah law shall apply to the extent state law is relevant under the FAA, unless
otherwise stated herein. The arbitrator’s award will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may enter
judgment upon the arbitrator’s award. The arbitration award and any judgment confirming it will apply only to the specific case and cannot be used in
any other case except to enforce the award.
12. SURVIVAL. This Arbitration section shall survive the repayment of all amounts owed, the termination, cancellation or suspension of the Agreement
or your account or credit privileges, any legal proceeding, and any bankruptcy by you, to the extent consistent with applicable bankruptcy law. If this
Arbitration section conflicts with the applicable arbitration rules or the other provisions of the Agreement, this Arbitration section shall govern.
13. SEVERABILITY. If any portion of this Arbitration section is held to be invalid or unenforceable, the remaining portions shall nevertheless remain in force
with the following two exceptions. First, if a determination is made that the “No Class Actions” provision is unenforceable, and that determination is not
reversed on appeal, then this Arbitration section shall be void in its entirety. Second, if a court determines that a public injunctive relief claim may proceed
notwithstanding the “No Class Actions” provision, and that determination is not reversed on appeal, then the public injunctive relief claim will be decided
by a court, and any individual claims will be arbitrated. The parties will ask the court to stay the public injunctive relief claim until the other claims have
been finally concluded.
14. HOW TO REJECT ARBITRATION. You may reject this Arbitration section. If you do that, a court will resolve any dispute or claim. To reject this section,
send us a notice within 45 days after you open your account or we first provided you with your right to reject this section. The notice must include your
name, address, account number, and personal signature, and must be mailed to Synchrony Bank, P.O. Box 965012, Orlando, FL 32896-5012. This is the
only way you can reject this section. Rejecting this Arbitration section will not affect any other provision of the Agreement. It will also not affect any prior
arbitration agreement or dispute resolution provision between you and us, which will remain in full force and effect. If you don’t reject this Arbitration section,
it will be effective as of the date of the Agreement and will supersede any prior arbitration agreement between you and us that would otherwise be applicable.

SECTION IV: OTHER IMPORTANT INFORMATION
BUSINESS REVOLVING CREDIT CARD ACCOUNT AGREEMENT
This section of the agreement includes state notices, billing rights summary and rewards terms (if applicable) and is not required to be provided as part of the
credit card agreement posted online or provided to the CFPB.

FR833282333 BARGAIN OUTLET B2B DC TC 184-286-00 CREDIT CARD
DC TC 184-286-00 38303L
6/19
5

